fos
|

OCKLE

2311 Douglas Street Nn 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B piel contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1786

JOANNE TROESCH AND IFEOMA NKEMDI,
Petitioners,
v.
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE
BOARD OF EDUCATION OF THE CITY OF CHICAGO,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GOLDWATER
INSTITUTE AND CATO INSTITUTE AS AMICI CURIAE SUPPORTING PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3602 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 22nd day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Kerse. 0. Lhe dy’ Qidraw- h Chih

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 41210
